Semiannual Report

       to

  the Congress





Office of Inspector General 


Railroad Retirement Board



April 1, 2007 to September 30, 2007
                         TABLE OF CONTENTS


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              1


OFFICE OF INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . .                               2


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     3

AUDIT/EVALUATION ACTIVITIES


INVESTIGATIVE ACCOMPLISHMENTS . . . . . . . . . . . . . . . . . . . . . . . . .                                 5


OFFICE OF AUDIT

Audit/Evaluation Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           8

Assessment of the Federal Managers’ Financial

         Integrity Act Process at the RRB . . . . . . . . . . . . . . . . . . . . . . . . .                     9

Evaluation RRB’s Privacy Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     11

Audit of Federal Income Taxes Withheld From RR Annuities . . . . . . . . .                                     13

FY 2007 Evaluation of Information Security at the RRB . . . . . . . . . . . . . .                              16

Audit of Controls to Safeguard Sensitive Personally

        Identifiable Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             19


MANAGEMENT DECISIONS AND IMPLEMENTATION . . . . . . . . . . . . .                                              20


OFFICE OF INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       21


Investigative Caseload Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              22

Retirement Benefit Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                23

Disability Benefit Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              25

Unemployment & Sickness Insurance Investigations . . . . . . . . . . . . . . . .                               28

Social Security Mortality Matching Program . . . . . . . . . . . . . . . . . . . . . . .                       31

Civil Enforcement Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            33

Employee Misconduct . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              34

Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    36

Legislative & Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  37

Systemic Implementation Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    38

Outreach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   38

APPENDICES



(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         40

(B) Inspector General Issued Reports with Questioned Costs

       and Recommendation that Funds Be Put to Better Use . . . . . . . . .                                41

(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . . . .                           43

(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               45

(E) IG Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              52

(F) Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   54

(G) Legal Citations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    56

Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       INTRODUCTION
       Railroad Retirement Board                                           The Railroad
                                                                           Retirement Board
The Railroad Retirement Board (RRB) is an independent agency in the        is an independent
executive branch of the federal government. The Board consists of          agency in the
three members who are appointed by the President of the United             executive branch
States with the advice and consent of the Senate. One Board member         of the federal
is appointed upon the recommendation of railroad employers, another        government.
member is appointed upon the recommendation of railroad labor
organizations and the third, who is the Chairman, is appointed to
represent the public’s interest. Board Members’ terms are five years in
length and expire in staggered years.

The agency administers comprehensive retirement-survivor and
unemployment-sickness insurance benefit programs for the nation's
railroad workers and their families. These programs are codified under
the Railroad Retirement Act, 45 U.S.C. § 231, et. seq. and the Railroad
Unemployment Insurance Act, 45 U.S.C. § 351 et. seq., respectively.
The RRB also has administrative responsibilities for certain benefit
payments under the Social Security Act and administers Medicare Part
B, the physician services aspect of the Medicare program, for qualified
railroad beneficiaries.

The agency’s central mission is to pay accurate and timely benefits.
During fiscal year (FY) 2007, RRB paid approximately $9.7 billion in
retirement and survivor benefits to 600,000 beneficiaries. RRB also
paid $73 million in net unemployment and sickness insurance benefits
to almost 28,000 claimants during the benefit year ending July 30,
2007. The Railroad Medicare Pa rt B carrier, Palmetto GBA, paid
approximately $897 million in medical insurance benefits for more than
496,000 beneficiaries.




Railroad Retirement Board - Office of Inspector General               1
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       Office of Inspector General
The Railroad Retirement Solvency Act of 1983 established the Office of
Inspector General (OIG) at the RRB by naming the agency as “one of           The OIG has
such establishments” identified under Section 2 of the Inspector             three operational
General Act of 1978, as amended. The Inspector General Act                   components.
Amendments of 1988, added the RRB to the list of covered agencies.

The RRB Inspector General is a Presidential Appointee who serves as
an independent and objective voice to both the Board and the
Congress. It is the Inspector General’s responsibility to promote
economy, efficiency and effectiveness in the RRB’s programs. To that
end, the OIG conducts audits/evaluations, management reviews,
inspections of RRB program operations and provides recommendations
for improvement to agency management. The OIG also identifies and
investigates cases of waste, fraud and abuse in RRB programs. OIG
works closely with federal prosecutors and makes the appropriate
referrals for criminal prosecution, civil prosecution or monetary recovery
actions.

The OIG has three operational components: the immediate Office of
the Inspector General, the Office of Audit and the Office of
Investigations. The office conducts operations from several locations:
the headquarters of the RRB in Chicago, Illinois, an investigative field
office in Philadelphia, Pennsylvania and domicile investigative offices in
Arlington, Virginia and San Diego, California.

The health and welfare of our nation’s railroad workers and their
families rely on the economy, efficiency and effectiveness in the RRB’s
programs. It is the mission of the OIG to ensure these qualities exist in
RRB programs.




Railroad Retirement Board - Office of Inspector General               2
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       EXECUTIVE SUMMARY
       Audit/Evaluation Activities                                         Office of Audit
                                                                           began their work
During the reporting period of April 1, 2007 through September 30,         on the Fiscal Year
2007, the United States Railroad Retirement Board, Office of Inspector     2007 Financial
General - Office of Audit (OA) completed audits/evaluations relating to    Statement Audit.
the Federal Managers’ Financial Integrity Act of 1982 (FMFIA), the
Railroad Retirement Board’s privacy program, federal taxes withheld
from railroad retirement annuities, fiscal year (FY) 2007 evaluation of
agency information security and controls to safeguard sensitive
personally identifiable information (PII).

OA also began their audit of the Railroad Retirement Board’s Fiscal
Year 2007 Financial Statement. OIG is required to perform their
financial statement audit in-house. Financial statem ent audits are
complex in nature and are extremely work intensive. OA devotes a
large amount of resources to this audit.

FMFIA requires Executive branch agencies to establish and maintain
internal controls to ensure that Federal programs operate efficiently,
effectively and in compliance with relevant laws. The RRB created the
Management Control Review Committee (MCRC) to establish and
oversee a process to identify and eliminate management control
weaknesses and financial non-conformance. T he audit objectives were
to determine whether management assurance statements were fully
supported by management control documentation and to determine
whether they comply with and satisfy the requirements of Office of
Management and Budget (OMB) Circular A-123. OA con cluded RRB
needs to improve the effectiveness of the management control review
process. Management accepted all eleven audit recommendations.

OA’s audit of the agency’s privacy program was conducted pursuant to
the Federal Information Security Management Act of 2002 (FISMA).
The audit’s objective was to assess the adequacy of RRB’s privacy
policy. OA concluded RRB’s privacy program was not fully effective in
providing reasonable assurances that proper safeguards exist to
ensure the security and confidentiality of records. Management
concurred with 16 of the 17 recommendations.


Railroad Retirement Board - Office of Inspector General               3
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

Pursuant to the Railroad Retirement Solvency Act of 1983 and effective
beginning with the 1984 tax year, the RRB began withholding federal
income tax from Railroad Retirement Act (RRA) annuity payments. The
RRB sent more than 600,000 original tax statements to beneficiaries for    The objective of
tax year 2005. The objective of OA’s audit was to assess the a ccuracy     OA’s audit was to
of federal taxes withheld from RRA annuity payments. OA was not able       assess the
to completely assess tax withholding because RRB lacked adequate           accuracy of
support for processing transactions. Management concurred with all         federal taxes
six audit recommendations.                                                 withheld from
                                                                           RRA annuity
                                                                           payments.
The RRB’s information system environment consists of six major
application systems and two general support systems, each of which
has been designated as a moderate impact system in accordance with
standards and guidance promulgated by the National Institute of
Standards and Technology (NIST). The major application systems
correspond to RRB’s critical operational activities and the two general
support systems comprise the mainframe computer and the end-user
computing systems. OA’s audit of Fiscal Year 2007 Evaluation of
Information Security at the Railroad Retirement Board was pursuant to
E-Government Act and FISMA. FISMA requires annual OIG and
agency reviews including information security. Information security
refers to protecting information and information systems from
unauthorized access, use, disclosure, disruption, modification or
destruction to provide confidentiality, integrity and availability of
information. Managem ent concurred with all eight of OA’s
recommendations.

During this reporting period, OA performed an Audit of Controls to
Safeguard Sensitive Personally Identifiable Information. Due to the
sensitive nature of this audit it had a limited distribution and was not
publicly disclosed. Management concurred with all 22 audit
recommendations.

Major audit findings and recommendations for corrective actions are
discussed in detail on pages 8 to 19.




Railroad Retirement Board - Office of Inspector General                4
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007


       Investigative Accomplishments
The Office of Investigations (OI) focuses its efforts on identifying,         OIG had over
investigating and presenting cases for prosecution throughout the             $4 million in
                                                                              monetary
United States concerning fraud in RRB benefit programs. OI conducts
                                                                              accomplishments
investigations relating to the fraudulent receipt of RRB sickness,
                                                                              during this
unemployment, disability or retirement benefits. OI investigates railroad     reporting period.
employers and unions when there is an indication that they have
submitted false reports to the RRB. OI also investigates allegations of
misconduct by RRB employees. Investigative efforts can result in
criminal convictions, civil penalties, administrative sanctions and/or the
recovery of program benefit funds.

During this reporting period, OI achieved 26 convictions, 23 indictments
and/or informations, 15 civil judgements and over $4 million in
monetary accomplishments. OI also had five arrests and 69 referrals to
the Department of Justice. RRB defendants were sentenced to 700
hours of community service.

During FY 2007, the agency collected over $1.3 million as a result of
criminal and civil judgements related to OI investigations. From April 1,
2007 through September 30, 2007, OI had $1,415,300 in investigative
recoveries from completed cases. Investigative recoveries are settled
fraud amounts that can be recouped through administrative recovery
action by the RRB.

Retirement benefit fraud investigations typically involve individuals’
failure to report disqualifying information, such as continued
employment, to the RRB. During this reporting period, RRB Special
Agents have investigated diverse fraud schemes such as: (1) a State
Representative/Former Mayor who failed to report his disqualifying
position with the state legislature, (2) a retirement annuitant who hid his
disqualifying wages through corporate structures; and (3) an annuitant’s
granddaughter who failed to notify the RRB of her grandmother’s death
in order to fraudulently cash the retirement checks for gambling
purposes.




Railroad Retirement Board - Office of Inspector General               5
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007


Disability benefit investigations often involve larger financial amounts
and more sophisticated schemes. During this reporting period RRB
Special Agents investigated a number of disability cases where the
annuitant used complex corporate structures to hide their employment
activities.

Unemployment Insurance (UI) and Sickness Insurance (SI) benefit
fraud typically involves claimants applying for and receiving benefits
while failing to report their wages from an employer. A majority of these
cases are referred to the OIG from RRB’s Disability, Sickness and
Unemployment Benefits Division.

Automated matching programs with other agencies, such as the Social
Security Mortality Matching Program, also reveal instances of
fraudulent benefit payments. During this report period, RRB Special
Agents completed a case where an annuitant’s daughter concealed her
mother’s death by posing as her mother during telephone
conversations with the agency.

RRB Special Agents also investigate allegations of misconduct by RRB
employees. During this reporting period, a defen dant from a previously
reported case received 15 years in prison for violating Sexual
Exploitation of Children and, in a separate case, an employee was
charged with Threatening to Assault and/or Murder a Government
Official.

A sample of OI fraud cases closed during this reporting period are
discussed in more detail on pages 23 to 35.

In FY 2008, OI will continue to aggressively pursue individuals who
engage in activities to fraudulently receive RRB funds. To further
support the goals of the OIG, OI added a domicile investigative office in
San Diego, California. This addition provides the OIG with a permanent
investigative presence on the West Coast.




Railroad Retirement Board - Office of Inspector General               6
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

       INVESTIGATIVE ACCOMPLISHMENTS



               Action               April 1, 2007 -       Fiscal Year
                                    September 30,         2007
                                    2007
 Convictions                                 26                  46
 Civil Judgements                            15                  25
 Indictments/Informations                    23                  32
 Investigative Recoveries*              $ 1,415,300          $ 1,533,720
 Restitutions and Fines                 $ 1,686,428          $ 2,283,529
 Civil Damages and Penalties             $ 677,206           $ 837,800
 Potential Economic Loss
 Prevented (PELP)                        $ 299,703           $ 524,466
 Community Service Hours                    700                 1000
 Disciplinary/Administrative
 Actions                                     0                    1
 Civil Complaints                            7                   15
 Criminal Complaints                         0                    1
 Arrests                                     5                    5
 Department of Justice Referrals             69                  132

*Investigative recoveries are fraud amounts that can be recouped through
administrative recovery action by the RRB.




Railroad Retirement Board - Office of Inspector General                 7
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007




       APRIL 1, 2007 THROUGH SEPTEMBER
       30, 2007 ACCOMPLISHMENTS
                                                                           OA examines
                                                                           programmatic,
       Office of Audit                                                     financial and
                                                                           administrative
                                                                           aspects of RRB
OA conducts audits and reviews to promote economy, efficiency and
                                                                           operations.
effectiveness in the administration of RRB programs and to detect and
prevent waste, fraud and abuse in such programs. Through the
Inspector General, the office ensures that the Board Members and
Congress are informed of any potential problems in the RRB’s
programs and operations. They are kept advised of recommended
improvements, as well as the status of corrective actions. OA
examines programmatic, financial and administrative aspects of RRB
operations.


       Audit /Evaluation Activities
OA conducts financial, performance and compliance audits as well as
evaluations of agency actions in response to the requirements of new
legislation and regulations. Their formal audit/evaluation reports
recommend corrective actions to strengthen agency programs. During
this semiannual reporting period, OA completed audits relating to
Federal Managers’ Financial Integrity Act of 1982 (FMFIA), the
agency’s privacy program, railroad retirement annuities’ federal income
tax withholdings, FY 2007 evaluation of agency information security
and controls to safeguard sensitive personally identifiable information
(PII). Discussion of the audits/evaluations, major findings and
recommendations for corrective actions follow.




Railroad Retirement Board - Office of Inspector General               8
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       Assessment of the Federal Managers’
       Financial Integrity Act Process at the
       Railroad Retirement Board - April 30, 2007                          The agency agreed
                                                                           with all eleven of
                                                                           OA’s audit
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires     recommendations
Executive branch agencies to establish and maintain internal controls to   related to FMFIA
ensure that federal programs operate efficiently, effectively and in       assurances and
compliance with relevant laws. OMB Circular A-123, Management’s            performance
Responsibility for Internal Control, was created to implement FMFIA.       documentation.

RRB management is responsible for developing and maintaining
effective internal controls which provide assurances that significant
weaknesses, which could adversely affect the agency’s ability to meet
its objectives, would be prevented or detected in a timely manner. RRB
management created the Management Control Review Committee
(MCRC) to establish and oversee the process to identify and eliminate
management control weaknesses and financial non-conformance.
During December 2006, MCRC prepared a Management Control Guide
to provide guidance for compliance with FMFIA. Du ring this reporting
period, OA conducted an audit of this process at the RRB. Th e audit
objectives were to determine whether: (1) management assurance
statements comply with the requirements of OMB Circular A-123 and
are fully supported by management control documentation; and (2)
management control guidance and documentation satisfy the
requirements of the FMFIA and OMB Circular A-123.

OIG determined that the assurance statement regarding compliance
with the Federal Financial Management Improvement Act (FFMIA)
provided in the RRB’s FY 2006 Performance & Accountability Report
(P&AR) was not applicable for the RRB. FFMIA assurance statements
are only applicable for agencies subject to the Chief Financial Officers
(CFO) Act. The RRB is not a CFO Act agency. The current assurance
statement implies that the RRB is subject to the CFO Act and should be
revised.

The MCRC does not have sufficient support for the management
assurance statement provided in the FY 2006 P&AR regarding
reliability of performance information. The RRB is required to make
assurance statements that satisfy the requirements of FMFIA § 2.

Railroad Retirement Board - Office of Inspector General               9
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

Assurances have been made for which the MCRC does not have
documented evidence. MCRC documentation and guidance also
lacked the identification and testing of controls over performance
measures. MCRC needs to improve the effectiveness of the
management review process to identify control objectives and develop
control techniques. Frequency of reviews should be increased and
schedule of future management control reviews should be prioritized.
Management concurred with all eleven recommendations.




Railroad Retirement Board - Office of Inspector General               10
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       Evaluation of the Railroad Retirement
       Board’s Privacy Program - July 30, 2007
                                                                           The object of OA’s
                                                                           audit was to assess
The mission of the RRB requires that it maintain detailed beneficiary      the adequacy of the
records including personally identifiable information (PII). The Privacy   agency’s privacy
Act of 1974 (Privacy Act) addresses the government’s obligation            program.
concerning records maintained on individuals. Throughout the years,
OMB has issued various directives regarding the implementation of
privacy policies. In 2002 Congress enacted the E-Government Act
which applies the Privacy Act to electronic environments. The Federal
Information Security Management Act of 2002 (FISMA) requires
agencies and OIGs to conduct annual evaluations of their information
security program. OMB has requested that Inspectors General review
their agency’s efforts to protect sensitive information. During October
2006 through April 2007, OA performed an evaluation regarding the
adequacy of the agency’s privacy program. OA concluded that the
agency’s privacy policy is not fully effective in providing reasonable
assurance that proper safeguards are in place to ensure the security
and confidentiality of records. On July 30, 2007, OA published the ir
audit report with 17 recommendations for agency improvement.
Management concurred with 16 of the 17 recommendations. The RRB
disagreed with one recommendation and OA agreed to close the
recommendation without implementation.

OA found that many of the RRB’s policies and procedures governing
the privacy program are outdated and require revisions to explicitly
support legal and/or OMB requirements. OA also f ound that the RRB
needs to provide job specific privacy-related training to many of their
employees who have increased responsibilities for handling PII.
Finally, OA found that the RRB needs additional resources to effectively
analyze the results of their periodic reviews and to develop and
implement appropriate action plans to address the weaknesses
identified.

During FY 2005, RRB appointed a new Chief Privacy Officer (CPO) to
oversee the privacy of beneficiary information. In FY 2007, RRB
established the Security and Privacy Committee and the Agency Core
Response Group to aid in the handling of privacy related issues.


Railroad Retirement Board - Office of Inspector General               11
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

Membership in these groups is held by existing agency staff members.
OA recommended and RRB agreed that the agency should acquire
additional staffing resources to aid in the implementation of the privacy
program.

OA determined that RRB is not preparing privacy impact assessments
as required by the E-Government Act. A privacy impact assessment
determines the risk and effects of collecting, maintaining and
disseminating information in identifiable form while examining and
evaluating protections and alternate processes that can mitigate those
potential risks. When new technologies, business processes or major
system modifications are planned, a lack of risk identification subjects
the agency to potential exposure or compromise of PII. OA
recommended and management agreed that the agency should
implement procedures and guidelines for privacy impact assessments.
In addition, management should conduct job specific training on privacy
impact assessments.

OA found that adequate safeguards are not in place to ensure
confidentiality of PII when it is remotely accessed or removed from RRB
premises. Management concurred with all but one of these related
recommendations and agreed to take action to implement them.
Management asserted that their existing policy sufficiently met the
requirements of the remaining recommendation. OA agreed and
closed that recommendation.

The RRB is not consistently including privacy-related Federal
Acquisition Regulation clauses and language in their solicitations and
contracts. Poorly articulated privacy and security safeguards increase
the risk of compromised information. Management will initiate a
revision to their policies and contracts.

The CPO does not always identify and certify contractor staff handling
PII. RRB will develop revised procedures and updated form s to ensure
compliance.

OA recommended that RRB revise many existing policies and
procedures to explicitly include privacy related issues and safeguards
for PII. Management agreed with OA’s recomm endations.




Railroad Retirement Board - Office of Inspector General               12
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       Audit of Federal Income Taxes Withheld
       From Railroad Retirement Annuities -
       July 30, 2007
The RRB’s strategic plan provides that they are to “provide excellent
customer service” and “to serve as responsible stewards for our
customer’s trust funds and agency resources.” OA supports the
agency’s strategic plan through their audit work.

Pursuant to the Railroad Retirement Solvency Act of 1983 and effective
beginning with the 1984 tax year, the RRB started withholding federal
income tax from Railroad Retirement Act (RRA) annuities. The
Taxation Accounting System (TAS) database and associated programs
were developed to meet the tax reporting and withholding requirements
imposed on the agency. The TAS calculates tax withholding and
accounts for all taxable payments to, and recoveries from, individual
beneficiaries. The TAS provides the data used to prepare the annual
tax statements that are sent to beneficiaries. This inf ormation is also
reported to the Internal Revenue Service (IRS). The agency uses an
outside contractor to produce and mail tax statements to annuitants.

A railroad retirement annuity has several components. The RRB must
withhold federal income taxes from those components that are not
equivalent to social security benefits unless the beneficiary specifically
directs otherwise. Generally, citizens or residents of the United States
may decline tax withholding or elect customized tax withholding by filing
the proper forms with the RRB. If the beneficiary does not decline
withholding or does not specify a certain withholding amount, the RRB
withholds taxes at the rate prescribed by the IRS. Nonresident aliens
may not decline withholding and are subject to mandatory tax
withholding at a prescribed rate unless they claim exemption under an
effective tax treaty.

After the end of each calendar year, the agency releases an annual tax
statement, Form RRB-1099-R, to each RRB annuitant. RRB’s Office of
Programs is responsible for computing withholding amounts, issuing
annual tax statements and maintaining the electronic record of
transactions in the TAS. The Office of Administration is responsible for
maintaining, transferring and storing the tax records.


Railroad Retirement Board - Office of Inspector General               13
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

OA conducted an audit analyzing the accuracy of RRB’s federal tax
withholdings from annuity payments for calendar years 2005 and 2006.
                                                                              OA conducted an
The lack of adequate agency documentation to support certain                  audit analyzing
transactions created a limitation on the scope of OA’s audit. This            the accuracy of
prevented OA from completing all steps necessary to fully achieve all         RRB’s federal tax
audit objectives and OA was not able to express an opinion regarding          withholdings from
the accuracy of federal taxes withheld from RRA annuity payments.             annuity payments
OA was able, however, to verify that the RRB does withhold taxes from         for calendar years
RRA benefits when required and the tax statements correctly reported          2005 and 2006.
the amount withheld. RRB mana gement concurred with all six audit
recommendations.

The requested tax withholding forms were not all readily available for
inspection by OIG auditors. In fact, none of the forms filed in 2002
were found. OA reviewed historical data because once a tax
withholding amount is elected, it remains in place until it is revoked or
amended. Subsequent to OA’s audit, agency management reported
the missing boxes of 2002 Form W-4Ps to the U.S. Computer
Emergency Readiness Team within the U.S. Department of Homeland
Security as a loss with PII. After further investigation, management
determined that six boxes with approximately 35,000 forms had been
unintentionally destroyed. OA has recommended that management
implement controls to ensure proper filing, storage and destruction of
tax withholding documents. Management ha s concurred with OA’s
recommendations and has already begun implementation.

The TAS that supports tax computation and withholding is not
programmed to retain any history of tax withholding election data.
Whenever a new election form is filed, the old information is overwritten
and permanently lost. Annuitants are allowed to change withholding
status; however, the U.S. Government Accountability Office Standards
for Internal Control in Federal Government require transactions to be
fully supported. Due to lack of histo rical data, RRB was not able to fully
support the history of tax withholding transactions for some annuitants.
OA recommended that RRB maintain a complete automated
transaction history. Management concurred with the recommendation
but has made an alternate suggestion on how to remedy the situation.




Railroad Retirement Board - Office of Inspector General               14
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

The agency does not always require annuitants to file the proper forms
to specify tax withholdings. Based upon OA’s recommendation that
management implement additional controls to ensure that only the
proper forms are accepted to effect withholding changes, RRB issued
an agency-wide reminder to the appropriate employees. A dditionally,
management will conduct a periodic quality assurance review.

RRB’s written procedures for computing tax withholding amounts have
not been updated to reflect changes in computational methodology.
Management concurred with OA’s recommendation and they have
already revised the tax withholding worksheet procedures to be
consistent with TAS’s rounding of amounts and calculation of tax
withholding amounts.




Railroad Retirement Board - Office of Inspector General               15
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007


       Fiscal Year 2007 Evaluation of Information
       Security at the Railroad Retirement Board -
       September 27, 2007

The objective of OA’s evaluation was: (1) to test the effectiveness of
information security policies, procedures and practices of a
representative subset of the agency’s information system; and (2)
assess RRB’s compliance with the Federal Information Security
Management Act of 2002 (FISMA) requirements and related
information security policies, procedures, standards and guidelines.

FISMA requires an annual OIG evaluation of the agency’s information
security program and practices that includes all agency general support
and major application system. The RRB has not yet achieved an
effective FISMA compliant security program and continues to address
its significant deficiencies in the previously reported areas of access
controls, risk assessment and periodic testing/evaluation. Agency
management has agreed to take all current recommended corrective
actions except for one. S ubsequently, OA has offered an alternative
recommendation based upon management’s response.

OA’s FY 2001 evaluation of information security cited the agency with a
significant deficiency in access control. The weaknesses included: (1)
inadequate management of user accounts and passwords, (2) the
inability to support detailed security evaluations of LAN user accounts
and privileges using existing facilities; and (3) a process of reviewing
and re-authorizing access to some mainframe component applications
that was not full effective. During FYs 2004 and 2005 OIG and
contracted technical specialists performed detailed tests in this area.
Out of the 31 OA recommendations, management has fully
implemented 9 resulting in 22 requiring further corrective action. In
FY 2007, OA made an additional recommendation to remove global
groups that allow excessive access and review the privileges defined in
the group policy object. Management concurred.




Railroad Retirement Board - Office of Inspector General               16
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

OA’s FY 2005 FISMA report cited the agency with a significant
deficiency in RRB’s risk assessment process. RRB’s drafted FY 2006
                                                                               OA recommended
risk assessment methodology has not yet been approved, adopted or
                                                                               that RRB extend
implemented.                                                                   FISMA compliant,
                                                                               testing and
RRB has not implemented a consistent FISMA compliant, testing and              evaluation to
evaluation process. OA’s FY 2005 FISMA report cited the agency with            include regional
a significant deficiency in this area. During FY 2007, RRB contracted          and field offices.
with technical specialists to assist in the certification and accreditation
of the RRB’s end-user computing general support system, including the
completion of security tests and evaluations. The contract, however,
only requires contractors “to perform their necessary services at the
RRB headquarters facility, located in Chicago, Illinois.” It appears that
these tests will not include RRB’s regional or field offices. OA
recommended that RRB extend this testing and evaluation to include
regional and field offices. Management concurred.

The RRB has met the FISMA requirement for information security
training for employees, but needs improvement in identifying
contractors. Management concurred with OA’s recommendations that
all new contractor employees receive security awareness training and
that the agency maintain a comprehensive listing of all contractors for
future annual refresher training.

The agency’s disaster recovery plan provides assurances that most of
the agency’s major information technology functions would be
operational in the event of a disaster, but the plan does not provide
reasonable assurance that the agency will be able to recover from a
disaster and perform its critical business functions in a timely manner.
Additionally, procedures do not ensure the protection of sensitive
information. OA re commended that RRB maintain control of sensitive
information by allowing enough time to properly complete all testing and
that all applications be tested on a rotating basis during a reasonable
period of time. Management agreed that it is appropriate for all major
application systems to be involved in off-site recovery testing; however,
they noted that they cannot force system owners to participate in these
exercises. Management agreed to develop a procedure to document
the solicitations to participate in off-site testing and the system’s owners
responses to the solicitations. OA offered additional suggestions and
will consider a continued inability to obtain a change of behavior among
system owners as a significant deficiency in future FISMA evaluations.


Railroad Retirement Board - Office of Inspector General                17
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

Management will schedule additional time following off-site testing to
ensure control of sensitive information.

Complete, accurate and reliable inventories of information systems,            OA’s FY 2007
including applications and hardware, strengthen the information                FISMA audit
security program. RRB concurred and will perform a physical inventory          indicates that the
                                                                               RRB has not
of information technology hardware and update the agency’s official
                                                                               completed
fixed asset inventory system.                                                  corrective actions
                                                                               on previously
The RRB’s incident handling and reporting program is generally                 reported
effective in ensuring the confidentiality, integrity and availability of the   deficiencies.
agency’s information and information technology. In FY 2006, OA
performed a detailed review of this area and RRB continues to work on
their corrective actions to implement recommendations made as a
result of this review.

RRB has developed and maintained subordinate plans for providing
adequate information security for networks, facilities and systems or
group of information. Management continues to work on implementing
previous recommendations regarding their certification, accreditation
and risk assessment program. The y are also working on identifying
and prioritizing all weaknesses in the agency’s information security and
privacy programs.




Railroad Retirement Board - Office of Inspector General                 18
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007


       Audit of Controls to Safeguard Sensitive
       Personally Identifiable Information -
       September 27, 2007                                                     The objective of
                                                                              OA’s audit was to
During this reporting period, OA performed an Audit of Controls to            assess the
Safeguard Sensitive Personally Identifiable Information. Due to the           effectiveness of the
sensitive nature of this audit, the OIG limited the distribution of the       agency’s policies,
report and it was not publicly disclosed. Management concurred with           procedures and
all 22 audit recommendations reported in the report.                          practices to
                                                                              adequately
                                                                              safeguard sensitive
Personally identifiable information (PII) is any information that is linked   PII.
to an individual such as name, birth date, address, or social security
number. Certain PII or combined elements of PII may be used to
commit identity theft and as a result is considered sensitive information.
The objective of the audit was to assess the effectiveness of the
agency’s policies, procedures and practices to adequately safeguard
sensitive PII. Generally, RRB needs to improve their PII security
program to more adequately safeguard sensitive information.
Management has already begun to address these issues.




Railroad Retirement Board - Office of Inspector General               19
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007




       MANAGEMENT DECISIONS AND
       IMPLEMENTATION
The OIG tracks the status of corrective actions for all audit/evaluation
recommendations. Office of Management and Budget Circular No. A-
50 (Revised) and the Inspector General Act Amendments of 1988
require the reporting of management decisions and corrective actions
for all audit/evaluation recommendations.


         Management Decisions for Recommendations

 Requiring Management Decision on April 1, 2007                      0
 Pending Management Decision for New Recommendations                 0
 Management Decision for Previous Recommendations                    0
 Recommendations Pending Management Decision on                      0
 September 30, 2007




                          Corrective Actions

 Recommendations Requiring Action on April 1, 2007                  149

 Recommendations Issued During This Period                           64
 Corrective Actions Completed During This Period                     24
 Final Actions Pending on September 30, 2007                        189




Railroad Retirement Board - Office of Inspector General               20
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007


       OFFICE OF INVESTIGATIONS
       INVESTIGATIVE CASELOAD DATA
During this semiannual reporting period, OI opened 122 investigations
and closed 148 cases. The major referral sources of the cases opened
between April 1, 2007 and September 30, 2007 are listed below.

        Source of Referral                         Percentage
         RRB Headquarters                                 40%
               Hotline                                    21%
         RRB Field Offices                                20%
          OIG Developed                                   11%
                Other                                     4%
          RRB Employees                                   3%
         Federal Agencies                                 1%


To gather evidence and further investigations, RRB Special Agents
have a wide range of investigative tools including the Federal Grand
Jury procedure, Inspector General Subpoenas and trial subpoenas.
The following table summarizes OI’s use of these investigative tools
from April 1, 2007 through September 30, 2007 and for FY 2007.


   Type of Subpoena            April 1, 2007 -       Fiscal Year 2007
        Served                 September 30,
                                    2007
 Inspector General                    39                        99
 Federal Grand Jury                   63                        118
 Trial Subpoena                        1                        18




Railroad Retirement Board - Office of Inspector General               21
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007


OI's current caseload totals 456 criminal matters, representing
approximately $10.8 million in fraud against the RRB. The potential
fraud losses by case type is listed below.
                                                                           RRB-OIG has
                                                                           a current
                                                                           caseload of
  Type of Case         Number of          Potential                        456 criminal
                        Cases           Fraud Losses      Percentage       matters.

 Disability                232            $6,314,611           50%
 Retirement                89             $2,662,082           20%
 Unemployment/
 Sickness                  73              $411,960            16%
 Spouse/
 Dependant                 19              $574,684            4%
 Other                     14              $305,047            3%
 Representative
 Payee                     13              $221,844            3%
 Railroad
 Employer                  10              $252,207            2%
 Employee                   3               $35,907            1%
 Threats                    3                    $0            1%




Railroad Retirement Board - Office of Inspector General              22
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       REPRESENTATIVE INVESTIGATIONS
       APRIL 1, 2007 THROUGH SEPTEMBER
       30, 2007
                                                                           The defendants in
                                                                           RRB retirement
       RETIREMENT BENEFIT INVESTIGATIONS                                   fraud cases
                                                                           received
                                                                           sentences totaling
The Railroad Retirement Act provides retirement benefits for qualified     five years in
railroad workers and their families. RRB retirement f raud typically       prison, 19 years
involves the theft and/or fraudulent cashing of retirement benefit         probation and 500
checks by someone other than the authorized RRB annuitant. A               hours of
second common scenario involves an individual failing to report            community service.
information to the RRB that may disqualify the annuitant from receiving
benefits. During this reporting period, OI obtained six convictions for
retirement fraud. The defendants in these cases received sentences
totaling five years in prison, 19 years probation and 500 hours of
community service. They were also ordered to pay $1,140,346 in
restitution and $15,125 in fines. OI had four civil judgments worth
$249,355 in civil damages and penalties.

Examples of cases completed during this reporting period follow.

       State Representative/Former Mayor Settles
       Retirement Fraud Case

Based upon an agency referral, OI initiated an investigation against an
annuitant who is a current Vermont State Representative and who had
previously served as Mayor of a small Vermont town. OI’s
investigation revealed the annuitant applied for RRB retirement
benefits but failed to report his continued employment with the State of
Vermont. Failure to report this income caused the theft of almost
$19,000 worth of RRB retirement benefits. This case was referred to
the U.S. Attorney’s Office (USAO) for the District of Vermont. The
annuitant entered into a settlement agreement with the USAO to repay
$30,000 in damages and penalties. Due to the annu itant’s public
position as an elected Vermont State Representative, the case
received local press coverage. Press coverage works as a substantial
deterrence and supports the fraud prevention mission of the OIG.


Railroad Retirement Board - Office of Inspector General              23
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

       Annuitant Forms Corporations to Defraud
       RRB

This case was referred to OI through an RRB District Office. OI’s
investigation revealed the annuitant returned to work as a railroad
president. Annuitants can not return to work in the railroad industry
without forfeiting their RRB pension. T he annuitant failed to report his
employment and paid himself in stock and stock options to avoid
having his earnings reported. The annuitant also set up several
corporations to act as conduits for compensation. He assigned several
of his railroad workers’ salaries to the corporations to avoid having the
service and compensation for these employees reported to the RRB.
It was determined that the annuitant fraudulently received $108,024 in
retirement benefits. Additionally, his wife received $41,650 in
fraudulent RRB payments. This case was referred to the USAO for the
Eastern District of Michigan. The annuitant entered into pretrial
diversion and was ordered to complete a term of 12 months
supervision and to make $108,024 in restitution. The new
management of the railroad agreed to re-file amended railroad
compensation reports for the misreported employees and will pay
approximately $73,622 in additional Railroad Retirement Taxes. The
spouse’s overpayment will be collected administratively.

       Fraud Discovered Through Failed
       Centenarian Congratulatory Celebration
This case was discovered when a District Office employee attempted
to deliver a congratulatory centenarian letter to an RRB beneficiary.
The Representative Payee, which was the beneficiary’s
granddaughter, failed to keep the appointment. After subsequent
inquiries it was discovered that the beneficiary had passed away in
1993. Special Agents interviewed the granddaughter who admitted
that she continued to receive and use her grandmother’s RRB annuity
check. She further admitted to using the benefit checks for gambling.
This case was referred to the USAO for the Western District of
Pennsylvania. The granddaughter was charged in a federal indictment
with violations of a Frauds and Swindles statute. She pleaded guilty
and was sentenced to five years probation, six months of electronically
monitored home confinement, 500 hours of community service, a $100
special assessment and ordered to pay $97,668 in restitution.


Railroad Retirement Board - Office of Inspector General              24
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       DISABILITY BENEFIT INVESTIGATIONS
OI also conducts fraud investigations relating to the RRB's disability
program. These cases typically involve larger financial amounts and
more sophisticated schemes. Railroad workers who are awarded a             RRB disability
disability annuity by the RRB are subject to work restrictions and         fraud defendants
earnings limitations.                                                      received
                                                                           sentences totaling
During this reporting period, OI obtained 11 convictions and six civil     one year
judgments in disability fraud cases. The defendants received               imprisonment and
sentences totaling one year imprisonment and 25.5 years probation.         25.5 years
They were also ordered to pay $472,686 in restitution, $302,126 in civil   probation.
damages and $8,475 in fines.

Descriptions of several cases follow.

       Disability Annuitant Ordered to Repay
       $111,266
This case was a result of an OI initiated special project. Further OI
investigation revealed the annuitant falsified RRB documentation and
failed to report his ownership and operation of a pawn shop that
earned him $900,000 in wages from 1998 through 2001. As a direct
cause of his action, the annuitant fraudulently received $111,266 in
RRB disability annuity benefits. During an interview with Special
Agents, the defendant admitted owning a construction company in
addition to the pawn shop. This case was referred to the USAO for the
Western District of Louisiana for both criminal and civil prosecution.
An information was filed for Failure to Report Information to the U.S.
RRB. The defendant pleaded guilty to the charge and was sentenced
to one year supervised probation, ordered to pay a special $25
assessment, fined $5,000 and ordered to pay $65,963 in restitution.
The USAO also initiated a civil procedure against the defendant where
he entered into a settlement agreement consenting to pay $45,303 for
violating the False Claims Act.




Railroad Retirement Board - Office of Inspector General              25
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       Disability Annuitant Used Rent Payments to
       Avoid RRB Earning Limitations

Special Agents investigated an RRB disability annuitant who served as
the president and director of a Massachusetts corporation which
operated a bowling alley. Further analysis determined that he
materially participated in the day-to-day operations of the bowling alley.
He also controlled and operated a restaurant. The annuitant failed to
report his corporate business activities to the RRB. In fact, the
annuitant tried to avoid RRB earning restrictions by having the
corporation pay him rent for the property and building occupied by the
bowling alley in lieu of wages. The annuitant and his wife owned these
properties personally. The annuitant also tried to avoid detection by
operating the restaurant as a sole proprietorship under his wife’s
name. His failure to report these wages caused him to receive RRB
disability benefits to which he was not entitled. In an interview with
RRB Special Agents, the annuitant admitted to falsifying
documentation and stated that he was willing to make restitution. This
case was referred to the USAO for the District of Massachusetts. The
annuitant was named in an one count indictment. He entered into a
plea agreement for violation of Failure to Report Information to the
RRB. The annuitant was sentenced to twelve months probation, a
$2,000 fine, a special assessment of $25 and restitution in the amount
of $30,000.




Railroad Retirement Board - Office of Inspector General              26
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007


       Disability Annuitant/Corporate Owner
       Ordered to Repay $62,773
OI’s investigation revealed that the annuitant owned and operated a
Louisiana bar. Financial analysis revealed earnings above RRB’s
disability limitation. The annuitant failed to report his earnings and
falsified RRB documentation. As a direct cause of his actions, the
annuitant fraudulently received $62,773 in RRB disability annuity
payments. This case was referred to the USAO for the Western
District of Louisiana for criminal and civil prosecution. The USAO filed
an one count information and the annuitant pleaded guilty. He was
sentenced to one year supervised probation, ordered to pay a special
$25 assessment, fined $1,200 and ordered to pay $24,862 in
restitution. The USAO also initiated a civil procedure against the
annuitant. He entered into a settlement agreement to pay $37,911 for
violating the False Claims Act.




Railroad Retirement Board - Office of Inspector General              27
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       UNEMPLOYMENT AND SICKNESS
       INSURANCE INVESTIGATIONS
Unemployment Insurance (UI) and Sickness Insurance (SI) benefit             During this
fraud involves individuals claiming and receiving UI or SI benefits while   reporting period,
working and receiving wages from an employer, in violation of federal       OI obtained six
law. OI receives the majority of these cases from the RRB’s Disability,     convictions and
Sickness and Unemployment Benefits Division as a result of                  five civil
information developed from state wage matching programs. The se             judgments for
programs match RRB annuitants with individuals who also have wages          completed UI
                                                                            and SI fraud
reported to the state during the same period of time when they are
                                                                            cases.
receiving UI or SI benefits from the RRB.

During this reporting period, OI obtained six convictions and five civil
judgments for UI and SI fraud. Defendants in th ese cases received, in
the aggregate, 15 years probation and were directed to perform 150
hours of community service. They were ordered to pay $31,144 in
restitution and $125,727 in civil damages and penalties.

Examples of cases completed during this reporting period follow.

       Judgement in the Amount of $22,680 Entered
       on Behalf of the RRB
OI initiated an investigation of an RRB unemployment insurance
claimant based upon a referral from the agency. The RRB had
conducted a computer wage match with the State of Illinois that
identified claimants who may have collected RRB administered
unemployment insurance benefits on the same days they received
wages from a private employer.

OI determined that during the period of May 2005 through November
2005 the claimant applied for RRB unemployment benefits on the
same days he was working and being paid by an employer. It was
also determined that during the period of December 2005 through
March 2006 he claimed Illinois Unemployment Insurance on the same
days he claimed RRB Unemployment Insurance. During an interview
with RRB Special Agents, the claimant admitted that he fraudulently
claimed RRB UI benefits. This case was referred to the USAO for the


Railroad Retirement Board - Office of Inspector General              28
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

Northern District of Illinois. The USAO filed a civil complaint alleging
violations of the False Claims Act. The defendant failed to respond
and a default judgment was entered against him for treble damages
plus interest in the amount of $22,680.


       Claimant Receives Two Years Probation for
       Unemployment Insurance Fraud
OIG initiated this investigation of an UI claimant based upon a wage
match with the State of Tennessee. It indicated that the claimant had
been employed while at the same time claiming and collecting RRB
administered unemployment insurance benefits.

OI determined that the claimant applied for unemployment benefits on
the same days he was working and being paid by an employer. During
the period of July 2005 through December 2005 he submitted a total of
11 false claims when applying for benefits and intentionally did not
report his employment to the RRB. His actions resulted in the theft of
$5,880 in benefits.

The case was referred to the District Attorney’s Office for Shelby
County, Tennessee. The annuitant was charged under Tennessee
Code, Theft of Property. The claimant pleaded guilty and was
sentenced to a term of two years probation and restitution in the
amount of $5,880.


       Sickness Insurance Annuitant Ordered to
       Pay $20,295
The OIG initiated an investigation of an RRB SI claimant based upon a
referral from the RRB Sickness and Unemployment Benefits Division.
Subsequent investigation revealed that during the period of September
2003 through March 2004, the claimant submitted 13 false claims for
RRB sickness benefits on the same days he was working and being
paid by an employer. During an interview with RRB Special Agents,
the claimant admitted that he fraudulently claimed RRB sickness
benefits.



Railroad Retirement Board - Office of Inspector General               29
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

This case was referred to the USAO for the District of New Jersey,
Newark. The USAO filed a civil complaint alleging violations of the
False Claims Act. He failed to respond and a default judgment was
entered against him for treble damages in the amount $20,295.




Railroad Retirement Board - Office of Inspector General              30
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

       SOCIAL SECURITY MORTALITY MATCHING
       PROGRAM

On a monthly basis, the RRB and the Social Security Administration
(SSA) conducts a computer match of deaths reported to the SSA in
the previous month with annuitant records on the RRB’s database.
The monthly mortality report file from SSA usually contains
approximately 200,000 to 250,000 death records. A record match or
hit from the monthly RRB/SSA mortality match prompts an
investigation by the RRB, usually in the form of a release of death
verification letters (Form Rl-75) and a subsequent FAST-S/T action if
the death report is confirmed.

Mortality reporting practices by local and state governments and
private entities have improved since the inception of the RRB/SSA
mortality matching process. As a result, the RRB Office of Policy and
Systems initiated a match of the SSA’s entire mortality file with the
RRB’s annuitant database. The match identified approximately 47
annuitants in pay status but who were reported as deceased by the
SSA. All of these cases were referred for investigation to OI. The
following tables summarize the results of the RRB/SSA Mortality
Matching Program for FY 2007.

                  Activity                                Number
 Investigation Initiated                                    47
 Investigation Closed - Not Deceased                        26
 Remaining Current Investigations                           21



   Results as of        Number                  Fraud Amount
     09/30/07
 Conviction                  1       Identified Fraud Loss $186,000
 Indictment                  2       Potential Fraud Losses $250,000
 Open                        18      Potential Fraud Losses $1.1 million
 Investigations


Railroad Retirement Board - Office of Inspector General               31
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

The following case was opened based on the mortality matching
project conducted by the Policy and Systems Division.

       Annuitant’s Daughter Receives 37 Months
       Imprisonment
An Ohio woman failed to report her mother’s death to the RRB and
fraudulently received more than $186,300 in benefits. To further her
scheme, the defendant posed as her deceased mother and
telephoned the RRB on several occasions to update her mailing
address. Additionally, the defendant posed as her deceased mother
when an OI Special Agent contacted her by telephone regarding the
investigation. Shortly after this contact, the dau ghter fraudulently
notified the RRB of her mother’s recent passing when in fact her
mother had died more than 12 years prior. This case was referred to
the USAO for the Northern District of Ohio for criminal prosecution.
The defendant pleaded guilty to Theft of Government Funds and
received a 37-month sentence followed by three years of supervised
release. She was also ordered to pay restitution totaling $186,356.
This case was a joint investigation between OIG and the U.S.
Department of Treasury, OIG.




Railroad Retirement Board - Office of Inspector General              32
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007


       CIVIL ENFORCEMENT RESULTS
OI also pursues civil actions to obtain a judicial order for recovery of
funds fraudulently obtained by annuitants or claimants. These civil           U.S. Department
actions are typically brought under the provisions of the False Claims        of Justice’s
Act. This statute allows the government to recover up to treble               Affirmative Civil
damages as well as $5,500 to $11,000 for each false claim submitted.          Enforcement
Some of these civil actions are pursued under the DOJ’s Affirmative           program provides
Civil Enforcement (ACE) program which provides a fast track                   a fast track civil
                                                                              prosecution for
prosecution mechanism.
                                                                              some of OI’s
                                                                              fraud cases.
During this reporting period, a total of 15 civil judgements were entered
by federal district courts that will result in $677,206 being repaid to the
government.

DOJ frequently obtains double damages through these civil false
claims prosecutions. The ACE program continues to provide an
efficient means to address fraud against RRB programs, particularly
where the fraud losses are below the financial guidelines for criminal
prosecution. It is also an effective way to return fraud losses to the
RRB’s trust funds and create a deterrent again future fraud.

The following is an example of an ACE case.

       Annuitant’s Daughter Agrees to Pay Double
       Damages

An Illinois woman failed to report her father’s death to the RRB and
continued to receive and withdraw his annuity in the amount of
$19,864. After thorough investigation by OI, the case was referred to
the USAO - Northern District of Illinois Affirmative Civil Enforcement
Unit. The USAO filed a civil complaint against the defendant for
violations of the False Claims Act. The defendant signed a consent
judgment and agreed to pay back $37,709 which represents double
damages minus previous payments credited. The USAO also
recorded a post judgment lien against the defendant’s property to
secure payment.




Railroad Retirement Board - Office of Inspector General               33
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007

       EMPLOYEE MISCONDUCT
OI also investigate allegations of Railroad Retirement Board employee
misconduct.
                                                                           OI also
                                                                           investigates
       Former RRB Employee Sentenced to 15                                 allegations of
       Years for Sexual Exploitation of Children                           Railroad
                                                                           Retirement Board
As reported during our October 1, 2006 - March 31, 2007 Semiannual         employee
Report to the Congress (page 27), RRB-OIG initiated an investigation       misconduct.
based upon a referral from the U.S. Department of Homeland Security,
Immigration and Customs Enforcement (ICE). It was alleged that the
employee was soliciting a minor child to have a sexual relationship via
the Internet.

Subsequent investigation by OI and ICE revealed that the employee
was involved in an inappropriate Internet relationship with an out-of-
state minor. Evidence analysis showed the employee utilized both his
home computer as well as his work computer to communicate with the
minor child.

In November 2006, the employee was arrested and taken into custody
at the RRB Headquarters in Chicago, Illinois. During an interview, he
admitted to having an improper relationship with a minor child and
using both his work and home computers to communicate with the
child.

RRB-OIG and ICE Special Agents also executed a search warrant at
the employee’s RRB work area and his residence. During the search
of his residence, Agents discovered a large volume of intact and
shredded official RRB documentation. Based upon his theft of official
RRB documentation, the employee was terminated from government
service in December 2006. In April 2007, the former employee was
convicted of violating Sexual Exploitation of Children and was
sentenced to 15 years in prison, ordered to pay a $100 fine and
received life supervision.




Railroad Retirement Board - Office of Inspector General              34
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007


       RRB Employee Enters Into Pretrial Diversion
       for Threatening Supervisor

OI received an allegation that an RRB employee threatened to kill his
supervisor because, among other things, he believed his supervisor
had unjustly passed him over for a promotion and not included him in
certain work meetings. When interviewed, the employee admitted to
Special Agents that he had threatened to physically assault his
supervisor but denied that he made a death threat. He was taken into
custody and charged with Threatening to Assault and/or Murder a
Government Official. The case was referred to the USAO for the
Northern District of Illinois. He entered into a pretrial diversion
agreeing to permanently discontinue his employment with the RRB.




Railroad Retirement Board - Office of Inspector General              35
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       HOTLINE CALLS
                                                                           The OIG
The OIG established its Hotline to receive complaints concerning           established its
suspected fraud, waste and abuse in RRB programs and operations.           Hotline to receive
The Hotline provides an open line of communication for individuals to      complaints
report suspected criminal activity, conflicts of interest, mismanagement   concerning
and waste of RRB funds. During this reporting period, OIG updated          suspected fraud,
their Hotline web page to include additional reporting guidance making     waste and abuse in
it more user-friendly. OI also added detailed information regarding        RRB programs and
identity theft including a hyper-link to the Federal Trade Commission’s    operations.
Identity Theft website.

OIG received 901 Hotline contacts during FY 2007 and 437 during this
reporting period. The following table summarizes the subsequent
hotline referrals for the period April 1, 2007 through September 30,
2007 and for FY 2007.


           Referral Activity               04/01/07 -     Fiscal Year
                                            09/30/07         2007
 OIG-Office of Investigations                  49              99
 OIG-Office of Audit                            2               2
 RRB Bureaus                                   186            345
 Other Federal Agencies                        11              19
 Local or State Agencies                        0               0
 RRB Medicare Carrier/ Durable
 Medical Equipment Regional                     2               6
 Carrier
 Other (misdirected calls, follow-up           151            352
 calls to agents, etc.)
 Calls With Insufficient Information           30              66
 to Make Appropriate Referrals




Railroad Retirement Board - Office of Inspector General              36
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       LEGISLATIVE & REGULATORY
       REVIEW
The Inspector General Act requires the Inspector General to review          RRB-OIG is
existing and proposed legislation and regulations relating to the           currently prohibited
programs and operations of the agency. It also requires the Inspector       from performing
General to make recommendations in the semiannual report                    their statutory
                                                                            obligation to
concerning the impact of its activities on the economy and efficiency of
                                                                            audit/investigate the
the agency’s administration of its programs and in particular on the        RRB Medicare
prevention of fraud and abuse. The OIG has no comments for this             program.
reporting period.

       Medicare Restriction
Since FY 1997 the RRB-OIG has been prohibited from using its
appropriated funds to conduct any investigation, audit or review of the
RRB Medicare program. This prohibition has produced an unforeseen
consequence concerning certain oversight activities which the RRB­
OIG is mandated to carry out on an annual basis. As reported earlier,
FISMA requires Inspectors General to conduct an annual evaluation of
the department or agency’s information security program and practices.
Again during the current reporting period, OA was not able to fulfill
FISMA’s oversight mandate because the current Medicare prohibition
prevents OA from reviewing information systems related to the RRB’s
Medicare program.

Under the Inspector General Act of 1978, as amended, the RRB-OIG is
authorized to conduct oversight activities for all programs and
operations conducted by this agency. The current prohibition not only
prevents the RRB-OIG from fulfilling its responsibilities under its
authorizing statute, but it also prevents it from conducting a complete
review of the agency’s information security program and practices as
mandated by FISMA.

Additionally, Medicare fraud, waste and abuse undermine all Medicare
recipients’ ability to receive the high quality health care which they
deserve, including railroad retirees and qualifying disabled workers.
The removal of the Medicare prohibition is consistent with the statutory
responsibilities assigned to this office under the Inspector General Act,
as amended, and the statutory mandates of FISMA.

Railroad Retirement Board - Office of Inspector General              37
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007



       Systemic Issue Reporting
Previously, RRB-OIG uncovered a common scheme where RRB                       An RRB Special
disability and retirement annuitants used certain corporate structures to     Agent assisted
hide their employment activities and earnings. Based upon OI’s                at Chicago’s
recommendation, RRB updated five agency forms and two annuitant               third citywide
informational booklets requiring annuitants to report corporate affiliation   gun turn-in
information.                                                                  event.


       Outreach
During June 2007, the Assistant Inspector General for Investigations
and the Counsel to the Retirement Board Management Member
delivered a joint presentation at a liability conference sponsored by the
American Short Line and Regional Railroad Association. This seminar
was attended by 120 participants associated with regional and short
line railroads, as well as legal and insurance company representatives.
Their presentation addressed issues relating to the agency’s
administration of the disability program and fraud matters identified
through the OIG’s case work.

In July 2007, an RRB Special Agent assisted at Chicago’s third citywide
gun turn-in event. This event was hosted by the Chicago Police
Department in conjunction with various local community and business
leaders. During this event, weapons could be turned in for $100
prepaid credit cards, with no questions asked. Approximately 5,960
rifles, shotguns and pistols were collected. All weapons collected
during the event were destroyed. Assistance at this event was
important to foster a close working relationship with local law
enforcement officers.

On a monthly basis, an OA staff member attends the agency’s
Information Technology Steering Committee meetings. This committee
provides ongoing assessment of all new and existing IT projects,
identifies critical issues and frames them from management and
technical perspectives. The functions of the committee include




Railroad Retirement Board - Office of Inspector General               38
Semiannual Report to the Congress for April 1, 2007 - September 30, 2007


strategic information resource management plan review, capital
planning and investment control and enterprise architecture review.
The OA staff member is not a member of the committee but acts as an
OIG representative. As such, she compiles and maintains a file of
committee activities and decisions which are used by OIG staff when
assessing agency programs.


An OA staff member attends the agency’s Information Security and
Privacy Committee meetings as an OIG representative. This
committee facilitates the implementation and compliance of FISMA and
the E-Government Act. They are also involved in privacy management
compliance for the agency. As the OIG representative, she compiles
and maintains a file of committee activities and decisions which are
used by OIG staff when assessing agency programs. Additionally, she
is responsible for ensuring that the OIG’s interests are not overlooked
when major IT decisions are made by the agency.




Railroad Retirement Board - Office of Inspector General               39
       APPENDIX A



       REPORTS ISSUED

              # Assessment of the Federal Managers’ Financial Integrity Act Process at

              the Railroad Retirement Board - April 30, 2007


              # Evaluation of the Railroad Retirement Board’s Privacy Program -

              July 30, 2007


              # Audit of Federal Income Taxes Withheld From Railroad Retirement

              Annuities - July 30, 2007


              # Fiscal Year 2007 Evaluation of Information Security at the Railroad

              Retirement Board - September 27, 2007


              # Audit of Controls to Safeguard Sensitive Personally Identifiable

              Information - September 27, 2007 

              (Not Disseminated to the Public)





Railroad Retirement Board - Office of Inspector General              40
        APPENDIX B



            INSPECTOR GENERAL ISSUED REPORTS WITH

                      QUESTIONED COSTS



                                             Number       Questioned      Unsupported
                                                            Costs            Costs
 A. For which no management decision           0              0               0
 had been made by April 1, 2007

 B. W hich w ere issued from April 1           0              0               0
 through September 30, 2007

 Subtotal (A + B)                              0              0               0
 C. For which a management decision
 was made from April 1 through                 0              0               0
 September 30, 2007

 (i) dollar value of disa llowed co sts                       0               0
 (ii) dollar value of costs not disallowed                    0               0
 D. For which no management decision           0              0               0
 had been made by September 30, 2007


 E. Report for which no management             0              0               0
 decision was made within six months of
 issuance




Railroad Retirement Board - Office of Inspector General                41 

    INSPECTOR GENERAL ISSUED REPORTS WITH

RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE





                                                      Number    Dollar Value
 A. For which no management decision had been             0           0
 made by April 1, 2007

 B. Which were issued from April 1 through                0           0
 September 30, 2007

 Subtotal (A + B)                                         0           0
 C. For which a management decision was made
 from April 1 through September 30, 2007                  0           0
 (i) dollar value of disa llowed co sts                               0
 (ii) dollar value of costs not disallowed                            0
 D. For which no management decision had been             0           0
 made by September 30, 2007

 E. Report for which no management decision was           0           0
 made within six months of issuance




Railroad Retirement Board - Office of Inspector General        42 

APPENDIX C 

REPORT ON RECEIVABLES, WAIVERS and RECOVERIES


The FY1999 appropriations language for this office requires the reporting of additional
information concerning actual collections, offsets and funds put to better use achieved
as a result of Inspector General activities.

OFFICE OF AUDIT
           Funds to be put   Fu nds A greed by    Receivables                Recoveries
 Repo rt   to better use     Managem ent          Established   W aivers        to date

 99-03     $        50,850   $           50,850   $    50,580   $   50,490   $         360
 99-14              83,000              83,000*        34,423                       30,584
 99-16          48,000,000          48,000,000                                   10,276,000
 99-17          11,000,000           11,000,000                                   1,604,545**
 00-16             235,000             235,000                                     253,846***
 04-06             821,000             821,000        629,688                      629,688
 04-10             400,000             400,000                                     761,151
 05-03           1,800,000            1,800,000                                   3,302,926
 05-06              10,000               10,000
 05-07           1,070,000            1,070,000
 05-10           2,600,000            2,600,000
 06-04             257,000              257,000
 06-06             200,000              200,000


* This figure includes monies owed to the agency and overpayments which must be

refunded.

** This figure represents case corrections that resulted in receivables, annuitant

payments, employer tax credits and liabilities.

***This figure represents returned payments credited to debtor accounts.





Railroad Retirement Board - Office of Inspector General                      43
OFFICE OF INVESTIGATIONS
         Recoveries realized by the RRB resulting from court-ordered restitution and
         civil damages:


                            Fiscal Year         Amount
                                                Recovered
                               1999             $ 855,655
                               2000             $1,038,134
                               2001             $ 990,356
                               2002             $ 785,843
                               2003             $ 947,876
                               2004             $ 646,273
                               2005             $ 844,183
                               2006             $1,281,680
                               2007             $1,347,049




Railroad Retirement Board - Office of Inspector General           44
  APPENDIX D


RRB MANAGEMENT REPORTS

The information contained in this section has been provided by RRB management.



                  MANAGEMENT REPORT ON FINAL ACTION

                 ON AUDITS WITH DISALLOWED COSTS FOR

             THE SIX MONTH PERIOD ENDING SEPTEMBER 30, 2007





                                                                     Number                Disallowed Costs

 A. Audit reports, with management decisions, on
 which final action had not been taken at the beginning
 of the period.                                                          1                      $2,835

 B. Audit reports on which management decisions
 were made during the period.                                            0                        0

 C. Total audit reports pending final action during the
 period.                                                                 1                     $2,835 *

 D. Audit reports on which final action was taken
 during the period.                                                      0                        0

 1. Recoveries

    (a) Collections
    (b) Property
    (c) Other

 2. Write-offs                                                           0                        0


 3. Total of 1 and 2                                                     0                        0


 E. Audit reports needing final action at the end of the
 period.                                                                 1                     $ 2,835



* Identified in Audit Report 05-09, “Review of Internal Control Over Budget Execution.”




  Railroad Retirement Board - Office of Inspector General                                 45
       MANAGEMENT REPORT ON FINAL ACTION ON AUDITS WITH
     RECOMMENDATIONS TO PUT FUNDS TO BETTER USE FOR THE SIX
            MONTH PERIOD ENDING SEPTEMBER 30, 2007


                                                                                                   Funds to be put
                                                                    Number                           to better use
 A. Audit reports, with management decisions, on
 which final action had not been taken at the beginning
 of the period.                                                        7                             $ 3,843,250 *

 B. Audit reports on which management decisions
 were made during the period.                                          0                                           0

 C. Total audit reports pending final action during the

 period.                                                               7                            $       3,843,250 


 D. Audit reports on which final action was taken

 during the period.                                                    0                                             0


 1. Value of recommendations implemented.                              1                            $       761,150**

 2. Value of recommendations that management
 concluded should not or could not be implemented.
                                                                       0                                            0

 3. Total of 1 and 2.                                                  1                                $    761,150

 E. Audit reports needing final action at the end of the

 period. (C - D.3)                                                     6                                $   3,082,100 



*	       Compromised of the following amounts: $761,150 from Audit Report 04-10, “Review of Spouse Annuity Work
         Deductions at the Railroad Retirement Board,” $1,800,00 from Audit Report 05-03, “Evaluation of the RRB’s
         Processing of Disability Earnings Cases,” $10,000 from Audit Report 05-06, “Review of Compliance with the
         Prompt Payment Act,” $1,070,000 from Audit Report 05-07, “Evaluation of Survivor Annuity Work Deductions at
         the Railroad Retirement Board,” $257,000 from Audit Report 06-04, “Annuity Deductions for Retired Employees
         Working After Full Retirement Age,” $2,100 from Audit Report 06-05, “Review of Compliance with Provisions of
         the Railroad Retirement Act Governing the Initial Award of Benefits,” and $200,000 from Audit Report 06-06,
         “Review of the Termination and Suspension of Benefits Paid Under the Railroad Retirement Act.”

**	      Audit Report 04-10 contained an estimate of funds put to better use in the amount $400,000, and this figure
         was contained in previous reports. After reviewing and adjusting cases, the actual amount was $760,138, and
         the number on this page associated with that report are adjusted accordingly to reflect the larger amount.




     Railroad Retirement Board - Office of Inspector General                               46
        MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

        OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING 

                    AS OF SEPTEMBER 30, 2007

                                                     Funds to
                                        Disallowed   be put to           Reason action has not
         Report                Date       Costs      better use             been completed

Review of Quality             1/22/97     None         None	      The remaining recommendation will be
Assurance Activities                                              addressed in conjunction with efforts to
(97-06)                                                           improve calculation and reporting of
                                                                  performance measures.

Review of Non-Priority        3/13/97     None         None       The Office of Programs plans to review
Correspondence                                                    and reevaluate its approach to tracking
Handling (97-09)                                                  correspondence at the end of FY07.


Information Systems           6/28/00     None         None       The agency hired a security officer and
Security (INFOSEC)                                                hopes to close the only remaining
Assessment Report                                                 recommendation early in FY08.

Fiscal Year 2000              2/23/01     None         None	      The Bureau of Information Services has
Financial Statement                                               upgraded help-desk procedures and is
Audit (01-03)                                                     developing reports needed to close the
                                                                  last open recommendation.

Site Security Assessment      7/20/01     None         None	      The Bureau of Information Services will
for the Office of Inspector                                       close the last open recommendation by
General (Blackbird #1)                                            completing migration of all applications
                                                                  to new servers in FY08.

Security Controls             8/17/01     None         None	      The Bureau of Information Services
Analysis for the Office of                                        closed 35 recommendations and sent
Inspector General                                                 documentation to the OIG on the last 3.
(Blackbird #2)

Review of Information         2/5/02      None         None	      The Bureau of Information Services has
Security at the Railroad                                          closed 20 recommendations and hopes
Retirement Board                                                  to close the remaining 8 in FY08.
(02-04)




  Railroad Retirement Board - Office of Inspector General                               47
        MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

        OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                    AS OF SEPTEMBER 30, 2007

                                                   Funds to
                                      Disallowed   be put to            Reason action has not
        Report              Date        Costs      better use              been completed

Evaluation of the Self-
   12/27/02     None          None	     The Bureau of Information Services
Assessment Process
                                             obtained contractor support for one
for Information System
                                         assessment in FY07, and hopes to
Security (03-02)
                                               complete comprehensive assessments
                                                                of other major systems in FY08.

Inspection of
             3/20/03      None          None	     The Office of Programs has reviewed all
Unverified Records in
                                          20,000 records, with corrective actions
the RRB’s Employment
                                           and systems changes targeted for
Data Maintenance
                                               completion by the end FY08.
System

(03-06)


Review of the RRB’s
        9/8/03      None          None	     The Bureau of Information Services will
PIN/Password System
                                            establish procedures for the last open
for On-Line
                                                    recommendation in conjunction with
Authentication
                                                 action taken to close 03-10.
(03-09)


Review of the Systems
      9/8/03      None          None	     The Bureau of Information Services is
Development Life
                                               using new project management
Cycle for End-User
                                             software which should help close the
Computing
                                                      four remaining recommendations in
(03-10)
                                                        FY08.

RRB’s Railroad
            5/12/04      None          None	     The Office of Programs plans to finish a
Retirement Act
                                                 review of sampled items and close the
Document Imaging
                                               last recommendation early in FY08.
Process: Reliability of

Images from Scanned

Paper Documents

 (04-02)





  Railroad Retirement Board - Office of Inspector General                             48
       MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS

       OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                   AS OF SEPTEMBER 30, 2007


                                                      Funds to be
                                         Disallowed     put to               Reason action has not
         Report                Date        Costs       better use              been completed

Review of Accounts            7/29/04      None          None	      Policies and procedures developed by
Receivable Established                                              Programs are being reviewed in order to
Under the Railroad                                                  close the last two recommendations in
Unemployment Insurance                                              FY08.
Act (04-06)

Review of Mainframe            9/7/04      None          None	      The Bureau of Information Services and
Access Controls at the                                              Fiscal Operations hope to close the
Application Level -                                                 remaining recommendation in FY08.
Federal Financial System
(04-07)

Review of Mainframe            9/7/04      None          None	      The Bureau of Information Services hopes
Access Controls at the                                              to close the final recommendation during
Application Level - RRB                                             FY08.
Developed Applications
Controlled by ACF2 and
IDMS (04-08)

Review of Mainframe            9/9/04      None          None	      The Bureau of Information Services and
Access Controls at the                                              Fiscal Operations hope to close the last
Application Level -                                                 two recommendation in FY08.
Program Accounts
Receivable System
(04-09)

FY2004 Evaluation of          9/30/04      None          None	      The Bureau of Information Services has
Information Security at the                                         closed eight of nine recommendations,
RRB (04-11)                                                         and plans to close the last one in FY08.

FY2004 Financial              10/25/04     None          None	      Agency units have closed 12 of the 14
Statement Audit, Letter to                                          recommendations, and the Office of
Management (05-01)                                                  Administration submitted documentation
                                                                    to the OIG to close the remaining two.

Review of RRB                 12/6/04      None          None	      The Bureau of Information Services
Compliance with Federal                                             completed an initial feasibility study
Laws & Regulations on                                               related to competitive sourcing of some
Competitive Sourcing                                                information technology activities, and
(05-02)                                                             hopes to finalize an approach to this issue
                                                                    in FY08.




  Railroad Retirement Board - Office of Inspector General                          49
  MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS OVER

      TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                AS OF SEPTEMBER 30, 2007


                                                   Funds to
                                      Disallowed   be put to           Reason action has not
         Report               Date      Costs      better use            been completed

Evaluation of the RRB’s
    2/11/05     None       $1,800,000	 A review of almost 17,000 cases from
Processing of Disability
                                      2001 indicated the vast majority did not
Cases
                                                         require any adjustments. The
(05-03)
                                                       remaining cases should be completed
                                                               in FY08.

Review of Internal
         5/5/05      None         None	      The Chief Actuary is in the process of
Control Over the
                                               developing a workforce development
Actuarial Projection
                                           plan, with other documentation under
Process (05-04)
                                                review by OIG.

Review of Customer
      5/17/05        None         None	      Implementation of some items was
Service Performance
                                            delayed by a major database
Measures for Timeliness
                                        conversion project, while others related
of Initial Railroad
                                            to improve performance reporting will
Retirement Annuity
                                             be verified as part of financial
Payments (05-05)
                                               statement audits.

Review of LAN, LAN
         6/7/05      None         None	      This contractor-prepared confidential
Security Scan and Web-
                                         report contained 45 recommendations,
based Applications
                                             with over half addressed to date.
(DSD)


Review of Compliance
    6/15/05        None        $10,000	    The Bureau of Fiscal Operations
with the Prompt Payment
                                        closed eight recommendations, with
Act (05-06)
                                                    the last one to be closed in FY08.

Evaluation of Survivor
  7/14/05        None       $1,070,000	 Work on closing the last open item
Annuity Work Deductions
                                       was delayed by a major database
at the RRB (05-07)
                                            conversion project, but it should be
                                                               completed in FY08.

Review of Access
         7/18/05       None         None	      The Bureau of Information Services
Controls in the End-User
                                       has close 9 of 15 recommendations in
Computing General
                                              this confidential report. Documentation
Support System (05-08)
                                         has been submitted to OIG on 2
                                                                others, with the rest to be closed in
                                                                FY08.

Review of Internal
         9/6/05      $2,835       None	      The Bureau of Fiscal Operations has
Control Over Budget
                                            submitted documentation on one of the
Execution (05-09)
                                              two remaining recommendations, and
                                                                has requested programming changes
                                                                that should close the last one.

Review of Employee
       9/19/05       None         None	      The Office of Programs plans to
Work Deductions Prior to
                                       address the remaining open
Full Retirement Age 
                                           recommendation during the first half of
(05-10)
                                                        FY08.



  Railroad Retirement Board - Office of Inspector General                            50
  MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS OVER

      TWELVE MONTHS OLD WITH FINAL ACTION PENDING

                AS OF SEPTEMBER 30, 2007


                                                     Funds to
                                        Disallowed   be put to           Reason action has not
          Report               Date       Costs      better use            been completed

Fiscal Year 2005
          9/28/05        None         None       Information Services is developing
Evaluation of Information
                                        policies and procedures needed to
Security at the RRB 
                                             close the remaining two
(05-11)
                                                          recommendations.


Accuracy and Reliability
 1/30/06         None         None       The Office of Programs has closed
of GPRA Performance
                                              three of the seven recommendations,
Measures: Timeliness of
                                          with the remainder delayed by work on
Non-Disability Survivor
                                          a major database conversion project in
Annuity Payments 
                                                FY07.
(06-03)


Review of Compliance          4/12/06     None
       $2,100	     Programs staff closed four of the five
with the Provisions of the
                                       recommendations, with work on the
Railroad Retirement Act
                                          last one delayed by a major database
Governing the Initial
                                            conversion project in FY07.
Award of Benefits (06-05)

Review of the                 5/24/06     None       $200,000     Development of a referral system to
Termination and                                                   identify relevant cases and additional
Suspension of Benefits                                            training should be completed in FY08.
Paid Under the Railroad
Retirement Act (06-06)

Evaluation of the             8/14/06     None         None       The agency updated plans/procedures
Railroad Retirement                                               to close out three recommendations,
Board’s Disaster Recover                                          with documentation on the remaining
Plan (06-08)                                                      three under review by the OIG.

Review of Incident            8/24/06     None         None       Information Services implemented two
Handling and Reporting                                            recommendations, with the remaining
at the Railroad                                                   eight slated for completion in FY08.
Retirement Board (06-09)

Audit of the Solicitation     9/26/06     None         None       The Office of Administration took steps
and Award of the DB2                                              to close out two recommendations,
Conversion Contract                                               and submitted documentation to the
(06-10)                                                           OIG on the remaining two.




  Railroad Retirement Board - Office of Inspector General                              51
APPENDIX E
REPORTING REQUIREMENTS
Inspector General Requirements                                                     Page

Section 4(a)(2) - Review of Legislation and Regulations                               37


Section 5(a)(1) - Significant Problems, Abuses and Deficiencies                     8-20


Section 5(a)(2) - Recommendations With Respect to Significant Problems, 

Abuses and Deficiencies                                                             8-20



Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented            16-18



Section 5(a)(4) - Matters Referred to Prosecutive Authorities                          7



Section 5(a)(5) - Summary of Report Made to Agency Head                            None



Section 5(a)(6) - List of Audit Reports                                               40



Section 5(a)(7) - Summary of Each Significant Report                         3-4, 8-20



Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs      41



Section 5(a)(9) - Statistical Tables on Management Decisions on

Recommendations That Funds Be Put to Better Use                                       42





 Railroad Retirement Board - Office of Inspector General           52
REPORTING REQUIREMENTS



Inspector General Requirements Continued

Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old 

or Which No Management Decision Has Been Made                                          None



Section 5(a)(11) - Description and Explanation for Any Significant

Revised Management Decision                                                            None



Section 5(a)(12) - Information on Any Significant Management Decisions 

With Which the Inspector General Disagrees                                             None




Management Requirements

Section 5(b)(1) - Comments Deemed Appropriate                              Transmittal Letter



Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                   45



Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use            46



Section 5(b)(4) - Statement on Audit Reports With Final 

Action Pending                                                                       47 - 51





 Railroad Retirement Board - Office of Inspector General              53
APPENDIX F

ACRONYMS

ACE - Affirmative Civil Enforcement



CFO - Chief Financial Officer



CPO - Chief Privacy Officer 



DOJ - Department of Justice



E-Government Act - Title III of the E-Government Act 



FFMIA - Federal Financial Management Improvement Act



FISMA - Federal Information Security Management Act of 2002



FMFIA - Federal Managers’ Financial Integrity Act of 1982 



FY - Fiscal Year



ICE - U.S. Department of Homeland Security, Immigration and Customs Enforcement



IRS - Internal Revenue Service



MCRC - Management Control Review Committee



NIST - National Institute of Standards and Technology 





 Railroad Retirement Board - Office of Inspector General       54
ACRONYMS CONTINUED


OA - United States Railroad Retirement Board, Office of Inspector
General - Office of Audit


OI - United States Railroad Retirement Board, Office of Inspector
General - Office of Investigations


OIG - United States Railroad Retirement Board, Office of Inspector
General


OMB - Office of Management and Budget


P&AR - Performance & Accountability Report


PII - Personally Identifiable Information


RRA - Railroad Retirement Act


RRB - Railroad Retirement Board


SI - Sickness Insurance


SSA - Social Security Administration


TAS - Taxation Accounting System


UI - Unemployment Insurance


USAO - United States Attorney’s Office




 Railroad Retirement Board - Office of Inspector General             55
APPENDIX G

LEGAL CITATIONS


Federal:

Chief Financial Officers Act - 31 U.S.C. § 901, et seq.


False Claims Act - 31 U.S.C. §§ 3729 - 3733



Federal Information Security Management Act of 2002 - 44 U.S.C. § 3531, et seq.


Federal Managers’ Financial Integrity Act of 1982 - 31 U.S.C. § 3512, 

Public Law 97-255 



Frauds and Swindles - 18 U.S.C. § 1341 



Inspector General Act of 1978, as amended - 5 U.S.C. App. 3 



Inspector General Act Amendments of 1988 - 5 U.S.C. App. 3



Privacy Act of 1974 - 5 U.S.C. § 552a


Railroad Retirement Act - 45 U.S.C. § 231, et. seq.


Railroad Retirement Act, Penalties - 45 U.S.C. § 231(l)


Railroad Retirement Solvency Act of 1983 - P.L. 98-76



Railroad Unemployment Insurance Act - 45 U.S.C. § 351, et. seq.




 Railroad Retirement Board - Office of Inspector General             56 

LEGAL CITATIONS CONTINUED


Sexual Exploitation of Children - 18 U.S.C. § 2251(a)



Theft of Public Money - 18 U.S.C. § 641



Threatening to Assault and/or Murder a Government Official - 18 U.S.C. § 115(a)(1)(B)



Title III of the E-Government Act - 44 U.S.C. § 3541, et seq.




State Law:

Theft of Property - Tennessee Code 39-14-103




 Railroad Retirement Board - Office of Inspector General            57
              REPORT


FRAUD, WASTE AND ABUSE





 Call the OIG Hotline:
          1-800-772-4258

 E-mail: Hotline@oig.rrb.gov

 The OIG cannot ensure confidentiality to
 persons who provide information via e-mail.
 Do not send information by e-mail that you
 do not want a third party to read.

 Write: RRB-OIG Hotline Officer
        844 North Rush Street
        Chicago, IL 60611-2092
